No. 19-784

 

IN THE
Supreme Court of the Anited States

UNIVERSITY OF PENNSYLVANIA, ET AL.,
Petitioners,
v.

JENNIFER SWEDA, ET AL.,
Respondents.

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit

 

PROOF OF SERVICE AND DECLARATION PURSUANT TO SUPREME COURT RULE 29.5(c)
—— SS

1. Iam over the age of 18 years and am not a party to this action.

2. I certify that on February 26, 2020 at the direction of counsel for Respondents, three copies of
the Brief in Opposition were served on each party via First Class mail at the following
addresses:

Brian T. Ortelere David B. Salmons
MORGAN, LEWIS & Counsel of Record
BOCKIUS, LLP Michael E. Kenneally
1701 Market Street MORGAN, LEWIS &
Philadelphia, PA 19103 BOCKIUS, LLP
1111 Pennsylvania
Christopher J. Boran Avenue, NW
Matthew A. Russell Washington, DC 20004
MORGAN, LEWIS & (202) 739-3000
BOCKIUS, LLP david.salmons@
77 West Wacker Drive morganlewis.com
Chicago, IL 60601
3. Iswear under penalty of perjury that the foregoing is true and correct.

Executed on this 26th day of February 2020

 

Lisa Farnsworth — HBP Inc. - 2818 Fallfax Drive Falls Church VA 22042 - 703 289 9505
